<html>
<title> - FOREST SERVICE BUDGET FOR FISCAL YEAR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
               FOREST SERVICE BUDGET FOR FISCAL YEAR 2000

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                   FEBRUARY 23, 1999, WASHINGTON, DC

                               __________

                            Serial No. 106-7

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

55-182 <l-ar/r-ar>   U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                                     ---------- ----------
                                     ---------- ----------
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 23, 1999...................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Prepared statement of....................................     2
    Smith, Hon. Adam, a Representative in Congress from the State 
      of Washington..............................................     2

Statements of witnesses:
    Dombeck, Mike, Chief, U.S. Forest Service....................     7
        Prepared statement of....................................    30
    Lyons, James R., Under Secretary, Natural Resources and 
      Environment, Department of Agriculture; accompanied by 
      Francis P. Pandolfi, Chief Operating Officer, Forest 
      Service; Vincette L. Goerl, Deputy Chief, Forest Service; 
      Robert Lewis, Jr., Deputy Chief, Forest Service; Gloria 
      Manning, Deputy Chief, Forest Service; Ronald E. Stewart, 
      Deputy Chief, Forest Service; Clyde Thompson, Deputy Chief, 
      Forest Service, and Larry Payne, Associate Deputy Chief, 
      Forest Service.............................................     3
        Prepared statement of....................................    28


    OVERSIGHT HEARING ON FOREST SERVICE BUDGET FOR FISCAL YEAR 2000

                              ----------                              


                       TUESDAY, FEBRUARY 23, 1999

              House of Representatives,    
                        Subcommittee on Forests    
                                     and Forest Health,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:05 p.m., in 
Room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth [chairwoman of the Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Committee will come to order.
    The Subcommittee is meeting today to hear testimony on the 
Forest Service budget for Fiscal Year 2000.
    Under rule 4(g) of the Committee rules, any oral opening 
statements at hearings are limited to the chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses sooner and help members keep to their schedule. 
Therefore, if the other members do have statements they will be 
included in the hearing record under Unanimous Consent.
    Today, we convene to discuss the President's Fiscal Year 
2000 budget request for the Forest Service. To paraphrase an 
old saying, ``Same old tax-and-spend, different Fiscal Year.'' 
It is obvious from the President's budget request that the era 
of big government is back with a vengeance, and nowhere in the 
budget is this more apparent than the request for the Forest 
Service which includes a laundry list of new spending 
initiatives.
    What is even more mind-boggling is that the GAO and the IG 
have specified time and time again that the Forest Service is 
incapable of managing their fiscal and administrative affairs 
and, yet, the administration wants to increase their budget, 
their staff, and their responsibility. Where is the sense in 
that?
    The administration has proposed a program, The Lands Legacy 
Initiative, to add tremendous amounts of land to the national 
forest system at a time when there is a huge backlog of 
infrastructure and maintenance needs on currently-owned lands. 
Where is the sense in that? The administration is attempting to 
deprive the Forest Service of a valuable forest health 
management tool that is timber sales. At a time when one third 
of the Nation's Federal forests are at a high risk of 
catastrophic wildfire, the administration is proposing to 
dramatically decrease the budget for the timber sales program. 
Where is the sense in that?
    I cannot, in good faith, support budgetary increases for an 
agency that has, according to the GAO, an accountability 
crisis, or that is concerned more with political correctness 
than with correct management. Nevertheless, I am willing to try 
to continue to work with the Forest Service and the 
Appropriations Committee to craft a common sense budget for the 
agency that responds aggressively to current forest management 
and agency management needs.
    In light of the changes from previous years' budget 
requests, I have asked Under Secretary Lyons and Chief Dombeck 
to come before the Subcommittee to explain the Administration's 
proposals and to answer questions, and I hope that by the 
conclusion of this hearing we will have a better understanding 
of these proposals and the agency's funding needs.
    Now I am very happy to recognize the Ranking Minority 
Member for any statement that he may have. I am very pleased at 
the fact that Mr. Adam Smith, the gentleman from Washington, 
will be our Ranking Minority Member. Mr. Smith.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Today we convene to discuss the President's Fiscal Year 
2000 budget request for the Forest Service. To paraphrase an 
old saying, ``same old tax and spend--different fiscal year.'' 
It is obvious from the President's budget request that the Era 
of Big Government is back with a vengeance! And nowhere in the 
budget is this more apparent than the request for the Forest 
Service which includes a laundry list of new spending 
initiatives.
    What's even more mind-boggling is that the GAO and the IG 
have testified, time and time again, that the Forest Service is 
incapable of managing their fiscal and administrative affairs. 
And, yet, the Administration wants to increase their budget, 
their staff, and their responsibilities. Where's the sense in 
that?
    The Administration has proposed a program, the Lands Legacy 
Initiative, to add tremendous amounts of land to the national 
forest system at a time when there is a huge backlog of 
infrastructure and maintenance needs on currently owned lands. 
Where's the sense in that?
    The Administration is attempting to deprive the Forest 
Service of a valuable forest health management tool--timber 
sales. At a time when 1/3rd of the nation's Federal forests are 
at a high risk of catastrophic wildfire, the Administration is 
proposing to dramatically decrease the budget for the timber 
sales program. Where's the sense in that?
    I cannot, in good faith, support budgetary increases for an 
agency that has, according to the GAO, an accountability crisis 
or that is concerned more with political correctness than with 
correct management. Nevertheless, I am willing to work with the 
Forest Service and the Appropriations Committee to craft a 
common sense budget for the agency that responds aggressively 
to current forest management--and agency management--needs.
    In light of the changes from previous year's budget 
requests, I have asked Undersecretary Lyons and Chief Dombeck 
to come before the Subcommittee to explain the Administration's 
proposals and to answer questions. I hope that by the 
conclusion of this hearing, we will have a better understanding 
of these proposals and the Agency's funding needs.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF WASHINGTON

    Mr. Adam Smith. Thank you, I am happy to be here.
    Obviously, I have not previously served in this 
Subcommittee, so I am new to the Subcommittee. I have worked on 
some of the issues relating to forest health and other issues, 
most notably, the roads program and other things that affect my 
home State in Washington. So I have some background, but mostly 
I am here to learn this morning and I want to thank Mr. Lyons 
and Mr. Dombeck for coming by this morning. It sounds like you 
have your work cut out for you.
    It ought to be an interesting afternoon and I look forward 
to hearing your testimony and learning more about the Forest 
Service: what it does, its budget, and also some of the new 
proposals that the administration has put forward, to get a 
chance to judge them on their merits and see whether or not 
they will help our country and the Forest Service in general. 
But mostly I just want to learn what is going on with the 
Forest Service and fill in some of the gaps. So, I look forward 
to hearing your testimony and will probably have some questions 
later. Thank you.
    Mrs. Chenoweth. I will now introduce our first panel. Mr. 
James Lyons, Under Secretary, Natural Resources and 
Environment, Department of Agriculture, and Mr. Mike Dombeck, 
the Chief of the United States Forest Service. They will be 
accompanied by Mr. Francis Pandolfi, Chief Operating Officer; 
Vincette Goerl, Deputy Chief; Robert Lewis, Jr., Deputy Chief; 
Gloria Manning, Deputy Chief; Mr. Ron Stewart, Deputy Chief; 
Clyde Thompson, Deputy Chief, and Larry Payne, Associate Deputy 
Chief.
    Now, since they all from time to time may be giving 
testimony that will become part of the record, I wonder if they 
could all proceed to the front and take the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Thank you very much. As we have explained 
before, it is the intention of the chairman to place all 
outside witnesses under the oath, and I know that you have all 
received your copies of the rules and with all of you this is a 
pretty familiar formality here. So, we will open now with 
testimony from Mr. Lyons.

STATEMENT OF JAMES R. LYONS, UNDER SECRETARY, NATURAL RESOURCES 
   AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE ACCOMPANIED BY 
 FRANCIS P. PANDOLFI, CHIEF OPERATING OFFICER, FOREST SERVICE; 
VINCETTE L. GOERL, DEPUTY CHIEF, FOREST SERVICE; ROBERT LEWIS, 
   JR., DEPUTY CHIEF, FOREST SERVICE; GLORIA MANNING, DEPUTY 
CHIEF, FOREST SERVICE; RONALD E. STEWART, DEPUTY CHIEF, FOREST 
  SERVICE; CLYDE THOMPSON, DEPUTY CHIEF, FOREST SERVICE, AND 
      LARRY PAYNE, ASSOCIATE DEPUTY CHIEF, FOREST SERVICE

    Mr. Lyons. Well, thank you very much, Madam Chairman. Thank 
you for introducing the entire team that we brought up with us 
today. I also want to introduce a member of my staff, Meline 
Stanley, who was up here on Capitol Hill, and now serves as my 
confidential assistant, and has been very able help in my 
office. It is also a pleasure to get an opportunity to meet 
Congressman Smith and Congressman Udall and Congressman Udall, 
and have a chance to work with them in these next two years.
    Madam Chairman, I would like to present a brief overview of 
our budget and want to simply highlight a few areas of interest 
and concern that I know we will have an opportunity to discuss 
in greater detail. In particular, what I want to do is focus on 
the President's and the department's priorities in management 
of our rich natural resources, and also on the priorities that 
have been set out by Chief Dombeck through the natural 
resources agenda and explain ways in which ways this budget, I 
think, helps to bolster and amplify our efforts to focus on 
those elements of the agenda.
    Despite differences regarding budget priorities and several 
environmental riders which are part of the Fiscal Year 1999 
Appropriations debate, we worked hard with the Congress to 
develop a bill which helped the Forest Service move forward 
towards improved forest and ecological health and 
sustainability in Fiscal Year 1999. I want to thank you for 
your leadership in helping to bring that bill to rapid closure 
last year.
    This year, I expect that many of the same issues that we 
discussed and debated will arise again. Nevertheless, I think 
that we are making substantive progress in moving both the 
Nation's forests, and the Forest Service in a direction that 
will help ensure our ability to be good land stewards and 
provide a legacy of which you and I are both going to be very 
proud.
    First, for a brief overview, this budget proposes an 
overall increase in discretionary appropriations of about 6.5 
percent for the Forest Service. The budget includes a healthy 
emphasis on basic programs necessary for managing the agency's 
192 million acres of national forest land. In addition, the 
budget proposes a substantial increase in the research arena, 
$37.2 million, to enhance our ability to do the research 
necessary to guide us in being good land stewards and provide a 
scientific basis for the management decisions we make.
    Finally, the budget proposes major increases in the state 
and private forestry programs, programs that are geared towards 
working cooperatively with state forestry agencies and other 
cooperators in areas such as fire and forest health and 
cooperative land stewardship.
    Let me turn to the important priorities in the budget as 
far as the administration is concerned. As you know, the 
President has proposed several initiatives in the Fiscal Year 
2000 budget, including a number that were first initiated as a 
part of our efforts in Fiscal Year 1999. The President has 
proposed this year a Lands Legacy Initiative which you alluded 
to. The largest one-year investment ever in preservation of 
America's lands, and the continuation in terms of priority of 
the Clean Water Action plan to continue to focus on priority 
watersheds where protection and improvement programs are so 
desperately needed.
    The Lands Legacy Initiative, in my mind, Madam Chairman, is 
a bold initiative, and essential for America as we enter into 
the next millennium. This $1 billion program includes $217.6 
million in Forest Service funding which will focus on working 
with states, tribes, local governments, enrolling private 
partners to protect great places, and serve open space for 
recreation and wildlife, and to preserve forest, farmlands, and 
coastal resources.
    As the President noted in his State of the Union address, 
7,000 acres of farmland and open space are lost every day. The 
number of tracts of forest land of 50 acres or less doubled 
from 1978 to 1994 as our landscape was carved into smaller and 
smaller pieces. Access to and the health of these lands is 
diminishing as a result of this fragmentation. To address these 
serious concerns, the President's budget proposes to 
significantly increase funding of the agency's state and 
private forestry programs, with an increase of $80 million, or 
almost 50 percent over the Fiscal Year 1999 budget.
    I should point out, Madam Chairman, that, in a meeting that 
Secretary Glickman and I had with the Natural Resources 
Committee of the National Governor's Association, just this 
past Sunday, there was remarkably strong support from all 
corners for efforts to protect open space and initiatives to 
preserve America's great places. In fact, one of the 
individuals who spoke at the NGA meeting was Governor Christine 
Todd Whitman of New Jersey, in whose State a billion dollar 
bond issue was passed this past election to provide the 
resources, tax payer financed projects, to protect open space 
in the most densely populated State, New Jersey.
    Other governors spoke up as well as to the initiatives that 
have been taken by their own citizens to try and achieve 
similar goals. Our hope is to be able to work closely with 
states and local entities to help them realize their goals for 
protecting and preserving open space with the Lands Legacy 
Initiatives.
    The Fiscal Year 2000 budget contains several additional 
initiatives and, as we proposed last year, the administration 
again intends to forge legislation that will stabilize payments 
to States, and to correct, I think, some problems we have with 
the 25 percent payments which now of course are linked to 
timber sale levels, as timber sale levels have changed over 
time.
    Unfortunately, we have put ourselves in a situation where 
our children's education, and improvements in roads and rural 
counties are dependent upon timber sale levels. I think it is 
more appropriate and more beneficial for those communities to 
stabilize those payments by decoupling their linkage to timber 
sales. I think in that way we can provide predictability of 
payments in the States and counties can be assured of a stable 
base for long term funding.
    The President's initiatives are fully compatible with the 
Chief's natural resource agenda as I mentioned, Madam Chairman. 
Wildlife, grazing, fire, fisheries, and other programs 
increased by $48.6 million to support watershed health and 
restoration efforts. Increased funding contained in this budget 
is essential to restoring and protecting watershed health. The 
second element of the agenda promotes sustainable forest 
management, proposed budget increases of over $100 million in 
both the research and state and private areas to support this 
important initiative.
    Management of the national forest road system is a third 
component of the natural resources agenda, and with a funding 
increase of $22.6 million, what we hope to begin to do is 
better manage the expansive road system that we inherited, like 
INR roles in the Department and the Fire Service, so we can 
begin to manage that capital asset in a way that reduces 
impacts on the environment and continues to provide access 
needed for rural communities.
    As you know, Secretary Glickman recently announced a new 
rule for road management. While this issue is very contentious, 
and I expect we will get a chance to talk a little bit about 
that today, we think it is important to reduce new road 
building until we are better able to manage the road system 
that we presently have, a system that is large enough, I would 
remind you, to circle the globe 15 times.
    Lastly, as a part of the natural resources agenda, the 
President's budget continues to provide emphasis on recreation. 
We are pleased with the emphasis Congress has also placed 
there. I know that you are very familiar with the Recreation 
Fee Demonstration program which has provided a needed source of 
funds to make investments in infrastructure. I should point 
out, however, that 95 percent of the recreational experiences 
that occur in the national forests involve use of non-fee 
disbursed sites, so it is equally important that we continue to 
get appropriated funds to provide support for the recreation 
program.
    Let me close, Madam Chairman, by highlighting one other 
initiative underway which we will soon be reporting to the 
Subcommittee on, and that is the work that is being conducted 
by the committee of scientists who review the Forest Service's 
forest planning efforts. As you are aware, a year ago this past 
fall, Secretary Glickman appointed a committee of scientists. 
Dr. Norman Johnson of Oregon State University has headed that 
committee. They are close to completing the report and we have 
been in communication with staff of the Subcommittee to plan, 
at an appropriate time, hearings to highlight the outcome of 
their report which will serve as a basis for proposed revisions 
to our forest planning rules.
    We think the committee's efforts will help not only to 
document changes in policy over time but help to amplify the 
need to make changes in the forest planning process, and bring 
more focus to efforts to ensure the ecological sustainability 
of the Nation's forests and rangelands.
    With that, Madam Chairman, let me end my testimony. I would 
point out one other thing, since you mentioned in your opening 
statement that you thought that this was another one of those 
big government tax-and-spend budgets. I just want to point out 
that, and this has occurred, I can assure you, with quite a bit 
of pain, over the last six years, since I took office, the 
Forest Service has cut its staffing levels by nearly 20 
percent. We have gone from 35,000 full-time staff down to a 
total work force of full-time employees of 28,000. That is a 
significant cut in the size of our organization and what it 
really means is that those who remain in the organization, who 
are constantly presented with new tasks and new challenges, 
have to work that much harder to get the job done.
    So, I don't really think that it is fair to characterize 
this as a bloated budget, nor as an effort to expand the size 
and scope of the Forest Service. We have become a fairly lean 
and mean organization and, I think to Mike's credit, we are 
refocusing our efforts on the priorities that we think will 
make a huge difference in terms of the natural resource legacy 
that we are going to leave for future generations. So, thank 
you, Madam Chairman.
    [The prepared statement of Mr. Lyons may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Secretary.
    Now the Chair is pleased to recognize the Chief, Mr. 
Dombeck.

     STATEMENT OF MIKE DOMBECK, CHIEF, U.S. FOREST SERVICE

    Mr. Dombeck. Thank you, Madam Chairman. Mr. Smith, 
Committee members, I am pleased to be here. I would ask that my 
entire statement be entered into the record and I will just 
give a brief statement to allow more time for dialogue here, 
this afternoon.
    I have been in this job now about two years and I have got 
to say that it has been both a pleasure and challenge being 
part of the controversies, the continuing evolution in the 
direction of the Forest Service, and say that I appreciate some 
of the challenges more than ever and relate to nearly one 
hundred years ago with Gifford Pinchot's values and the 
conservation values of the Forest Service and like now, at that 
time, there were controversies, but the Forest Service has 
always stood for the long-term interests of the land and I 
believe that is a very important concept and I also believe 
that our budget focuses on the long-term health of the land for 
future generations.
    Over the last decade, and beyond that even, there has been 
a significant change in how society views conservation values. 
Many people have ceased viewing the forest and land as a 
warehouse of outputs to be brought to market but are focussed 
on other values, values such as water, values such as outcomes 
on the land, and the result of the changes that we have all 
been part of, we often find ourselves caught in the middle of 
competing interests. And there are those that look to the 
Congress, look to you, to fix legislation to what they perceive 
as negatively affecting interests.
    Others push to the limit the number of appeals so that the 
agency can get on with producing timber, or to stop producing 
timber, as the case may be, and depending upon their point of 
view, and still others ask for the Courts to resolve land use 
policies. But the central premise of our approach is that, by 
restoring and maintaining a healthy land base on public and 
private lands, we can assure that our children and their 
children's children will enjoy the benefits of land and water.
    You talked about accountability and the business management 
side of the Forest Service, and I believe that I have had more 
hearings on that issue, I am sure, than any other Chief, and I 
want to tell you, Madam Chairman, and all the Committee 
members, that we have got the message. In fact, I have made it 
clear, through organizational changes, through personal 
statements, that business and financial management functions of 
the Forest Service are equally important to managing resources, 
and we are proud of the framework that has been put together, 
and I want to publicly acknowledge Francis Pandolfi, our Chief 
Operating Officer. Francis is, as you know, going home on 
Friday to be with his family, and Francis has really gone 
through significant personal sacrifice, just like all of you do 
with your travel schedules, to get back to your friends and 
family, and I am delighted with the architecture that Francis 
has put in place and the team that he has assembled.
    I would also like to highlight the need to reform our 
budget structure. I want to work with Congress, with the 
administration, to design a budget structure that reflects the 
work we do in a more meaningful way, and reflects the 
requirements of the Results Acts Strategic Plan, and how it is 
tied to our natural resources agenda.
    I hope that our resource policy debate does not detract 
from the need to streamline and modernize the Forest Service 
with regard to accountability and business management. I think 
it has in the past, because I believe what we all want is a 
smoothly running operation in the Forest Service, regardless of 
our views on business management operations. I think we owe 
that to the public, to the taxpayers, to those that depend upon 
us, because the Forest Service is an important organization 
that serves many people. One hundred and ninety-one million 
acres of national forest system lands, nearly 400,000 miles of 
roads, $30 billion of infrastructure, 74,000 authorized land 
uses, 23,000 developed recreation sites, tens of thousands of 
dispersed recreation sites, 35 million acres of wilderness, a 
world class research program, a state and private forestry 
program that provides assistance to private landowners, to 
States, and a world class wildland firefighting organization, I 
believe remain vitally important to the American people.
    I would like to close there, Madam Chairman, and Jim and I 
and Ron and rest of the staff here would be happy to discuss 
any aspects of our program that you wish. Thank you.
    [The prepared statement of Mr. Dombeck may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Chief. I appreciate 
your testimony.
    Before I go into the questions, I do want to state, in 
response to a comment made by Mr. Lyons that, yes, the staff 
was cut by almost 20 percent, but the problem is that the new 
tasks and many of the new challenges are those that are coming 
from outside the statutory authority, and we are saddened by 
the fact that many of the staff that have been cut have been 
the foresters who really are the kind of people who manage the 
forest on the ground, and it is a trend that, although the 
numbers look good, is alarming. So, Mr. Lyons, in all fairness, 
would you like to respond to that?
    Mr. Lyons. Well, I appreciate that, Madam Chairman. I want 
to point out that, and please, we have not had to fire anyone 
or lay anyone off. Through voluntary retirements and early-
outs, we have been able to achieve the reductions we seek. I, 
too, am concerned about the institutional memory and the 
expertise in some of the program areas of the Forest Service, 
and something that Mike and I spent some time talking about in 
terms of developing the next tier of leadership, the people who 
will not only succeed us, but succeed the Deputy Chiefs and the 
Associate Deputy Chiefs and Regional Foresters and Forest 
Supervisors. So, we are aware of that concern. I think it is 
across the board, it is not just in any particular area, and we 
need to work hard to be able to invest in our people, which is 
really the key to the organization and its longstanding 
success.
    Mrs. Chenoweth. With regard to the questions that I want to 
ask, as you know, or may have been advised, I held some 
hearings last week in Idaho on the Targhee National Forest and 
the building of tank traps out there. It became a part of the 
record that $600,000 were spent to build these tank traps. That 
is very, very alarming. That, predicated on the fact that there 
were ten violations in the whole forest all of last year, that 
prompted this change in forest road policy. I say ``change'' 
because the building of tank traps is pretty dramatic, and as 
both of you have testified, you are concerned about the--
especially Mr. Lyons--the fact that you want a $22.6 million 
increase in roads. You want to make sure that your policy 
reduces the impacts on the environment and provides access. 
Well, this does exactly the opposite.
    Tank traps are something that are used in war, to stop 
tanks. The next day, after the hearing, we took snowmobiles and 
went up to the tank traps. There is not one sign warning 
individuals who are on snowmobiles that the benign little jump 
that they see on one side has a 15-foot drop on the other side. 
We have a county commissioner that broke his back, not 
realizing there was a tank trap there. I mean, the liability 
for individuals and for the agency, is tremendous.
    Now, I am angered and upset about the tank traps, and I 
want to find out a little bit more about it. But I am really 
alarmed that there are no warning signs up there. And Chief, 
Mr. Lyons I hope today, you will take care of that and make 
sure that warning signs are posted very clearly, and that 
doesn't mean that half of the country is off limits for 
snowmobilers. That is not where I want to go. I simply want 
snowmobilers to be aware that this is a very dangerous 
situation.
    Also, the $600,000 that it cost to do the tank traps, 
nobody knew about it. There was no EIS. While the county 
commissioners were being assured that this was not happening, 
huge equipment was being hauled up and tank traps were being 
built.
    I want to know, at this level, where does the buck stop? 
Who authorized that? Did you, Mr. Lyons? Who authorized the 
tank traps?
    Mr. Lyons. Well, let me answer this for you, Madam 
Chairman. First of all, we don't build tank traps.
    Mrs. Chenoweth. Pardon me?
    Mr. Lyons. We don't build tank traps.
    Mrs. Chenoweth. Well, then, you haven't been to the 
Targhee. There are tank traps built there.
    Mr. Lyons. Well, Madam Chairman, the first time we met, you 
accused us of having black helicopters, and I haven't found any 
of those yet. If we have tank traps, I would be glad to go out 
and look at them with you.
    But let me point out that we do, in certain cases, need to 
restrict access to roads, and we do that in a judicious way. I 
know there have been some issues associated with the way in 
which we build impediments to access, and I think Gloria can 
address that in a second.
    But I want to make this point: we are attempting to manage 
the road system in a way to protect public safety and health, 
not to cause injury and harm. We are also trying manage the 
road system in a way that is going to protect those natural 
resources that you and I have responsibility to protect, and I 
believe we are doing so in the most efficient and effective 
way, and where issues have been raised we are attempting to 
address them. Perhaps, I could ask our Associate Deputy Chief 
for the National Forest System to explain specifically how we 
are dealing with the issue that you are----
    Mrs. Chenoweth. I am not asking how we are dealing with the 
issue. Let me repeat my question. It was very straightforward 
and very simple. I want to know where the buck stops. Who 
authorized the tank traps being built in the Targhee National 
Forest? Did you, Mr. Lyons? It is a simple ``yes,'' or ``no'' 
question.
    Mr. Lyons. Well, the simple answer is that there are no 
tank traps in the Targhee National Forest.
    Mrs. Chenoweth. Then you tell the commissioner who broke 
his back.
    Mr. Lyons. Why don't we talk about the details, Madam 
Chairman?
    Mrs. Chenoweth. Now, listen, Mr. Lyons, we are not going to 
get together on the budget or anything else unless we face the 
facts. The facts are that tank traps have been built in the 
Targhee National Forest, no matter how you try to spin this. We 
have a dangerous situation there, and I don't want you to try 
to redefine yourself out of it. Who was responsible? Who gave 
the final okay on the tank traps?
    Mr. Lyons. Well, I certainly didn't give any okay on any 
theoretical tank traps.
    Mrs. Chenoweth. Who gave the final authority on the kind of 
project that cost $600,000 that was constructed up there in the 
Targhee? Most people refer to it as tank traps. If you want to 
redefine it, that is fine. Who authorized that project? Did 
you, Mr. Lyons? Yes or no?
    Mr. Lyons. I am not familiar with any authorized tank 
traps, Madam Chairman, so I----
    Mrs. Chenoweth. Who authorized that $600,000 expenditure--
--
    Mr. Lyons. Six hundred thousand dollars.
    Mrs. Chenoweth. [continuing] that built deep holes in the 
roads in the Targhee National Forest? Did you, Mr. Lyons?
    Mr. Lyons. I'm going to let Chief Dombeck----
    Mrs. Chenoweth. The answer, yes or no?
    Mr. Lyons. No.
    Mrs. Chenoweth. You did not authorize it?
    Mr. Lyons. No tank traps on my watch.
    Mrs. Chenoweth. Did you--who authorized the $600,000 
project in the Targhee National Forest? Whatever you may want 
to call it, Mr. Lyons, did you authorize it?
    Mr. Dombeck. Madam Chairman, I would assume that----
    Mrs. Chenoweth. Chief, I asked Mr. Lyons a question. I 
would--
    Mr. Dombeck. Okay, I'm sorry.
    Mrs. Chenoweth. [continuing] appreciate his answering it.
    Mr. Lyons. Well, I would say my answer is that I certainly 
authorized road closures.
    Mrs. Chenoweth. You authorized the $600,000 expenditure for 
roads to be closed in that manner?
    Mr. Lyons. I didn't deal with that specific issue, Madam 
Chairman.
    Mrs. Chenoweth. Chief, who did?
    Mr. Dombeck. I'm assuming that decisions of that magnitude 
would typically be made at the forest level or the regional 
level. I had discussed the issue of the closures on the Targhee 
when I met with Senator Craig some time ago and expressed some 
of the concerns. In fact, at that time, I think Jack Blackwell 
put a team together, and I believe we had a Washington 
representative that I had asked to be part of that.
    But I do want to say that I do share your concern about 
safety. I think that safety is of the utmost importance, and 
what I will pledge to you is, as soon as I get back to my 
office, after this hearing, I will be on the phone to the 
regional forester and make sure that the public has a safe 
experience out there and the appropriate precautions are taken.
    Mrs. Chenoweth. Thank you, Chief, and again, I do want to 
reiterate safety does not equate to having whole regions off 
limits to snowmobilers, but I am as concerned about where that 
decision came from as I am sure you are. Mr. Lyons.
    Mr. Lyons. I don't mean to interrupt, but you are probably 
aware of this, or at least your staff would be, that there was 
a law suit filed with regard to the depth of some of the 
impediments that were put in roads on the Targhee and a 
settlement agreement was reached to resolve this issue and as a 
part of the settlement agreement, I believe a commitment was 
made to bring the public out and look at these to make sure 
that there was a clear understanding what they were, and also 
to reach agreement on what would constitute a safe size hole, I 
guess is the only way to characterize it, to deal with this, so 
I think in some respects this issue has been addressed, though 
I certainly support Mike's commitment to sit down with your 
staff and look at it further.
    Mrs. Chenoweth. The issue has not been addressed to our 
satisfaction: especially when we don't see signs up there; 
especially when the tank traps are still in existence; and 
especially when there are piles of loose dirt that will create 
tremendous environmental hazards in the springtime. And I, 
without objection, would like to enter these pictures in the 
record. Also, I will send them around for the other Committee 
members to view.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. So, this issue will remain an issue with me 
and the Appropriations Committee chairman because $600,000 
could have gone a long way to helping to maintain roads instead 
of tearing them up.
    Mr. Lyons. Perhaps, Madam Chairman, just to help clarify, I 
could also ask to submit, for the record, a copy of the 
settlement agreement which explains and does include signage as 
part of the commitment that was made to address these issues.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Lyons, and for the record I 
also want to say the settlement agreement was only a small part 
of the suit. The suit is still going on. I am hoping that we 
will be able to help settle that in a short while with a 
reasonable road policy.
    The Chair now recognizes the new Ranking Member, Mr. Adam 
Smith.
    Mr. Adam Smith. Thank you. I just wanted to ask about three 
areas. One has to do with roads which is actually one area that 
I have worked on before. There is a lot of controversy 
surrounding how the roads are paid for. Leave that aside for 
the moment. Just kind of interested in the progress we are 
making in dealing with the problem.
    As you mentioned, there are some 383,000 miles of these 
roads twisting and turning throughout the public forests and 
they are definitely an environmental problem. As they 
deteriorate, lack of maintenance and/or closure is a major 
problem. I guess the question I have is, one, what sort of 
progress are we making on that problem? And, two, as we are 
looking to build new roads, which we are still doing in some 
portions of the forests, are we looking for ways to build them 
so that they do not become as big of an environmental problem 
or is that just not possible? Is it just the nature of roads 
that once they are abandoned, they become a difficulty, or is 
there some way to build them in a more environmentally friendly 
way?
    Mr. Dombeck. With regard to your first question, roads I 
believe are one of the more daunting challenges that I faced as 
I came into this job a couple of years ago with the nearly 
400,000 miles of roads in the national forest system, and yet 
very little support to maintain roads. Hence, we find ourselves 
almost having a circular problem that there are pressures to 
build more roads; there are pressures, tremendous pressures, 
opposed to roads, because of the environmental degradation, as 
a result of lack of support to maintain what we have.
    And as I crafted--I shouldn't give myself credit for this--
as the Forest Service crafted, the natural resources agenda, 
one of the four items of the regional foresters, the leadership 
of the Forest Service, indicated was important to focus on, was 
this issue of roads. In fact, the whole issue of Forest Service 
roads has been fairly intensely debated, both in the House of 
Representatives as well as in the Senate, for probably nearly 
20 years, perhaps more than that.
    So, the other question that I ask myself is, as a steward 
with responsibilities for these lands, is it appropriate to 
continue to build roads when we have 383,000 miles of roads and 
yet only the funding to maintain about 18 percent of these 
roads to the environmental and safety standards for which they 
were designed?
    We basically have to redefine the issue and help people 
understand that roads are an important part of the 
transportation infrastructure of rural America that have to be 
maintained. We just shouldn't be going in and putting new roads 
in and sort of ignoring some of these environmental problems.
    Mr. Adam Smith. Of course, the problem, and I understand, 
it is a matter of money, you can only do so many things, and 
the backlog on road maintenance or reconstruction is daunting--
--
    Mr. Dombeck. Yes.
    Mr. Adam Smith. [continuing] to say the least, but the 
other priority, you want to build new roads so you can get to 
places so you can cut down more trees, which is part of what 
happens on the public lands, and presumably where the roads 
already are, most of the forest in many cases is already cut 
down. So that if we accept for the moment that logging on 
public lands should happen, then you have to have roads of some 
sort. I understand the first part of my statement is also a 
matter of great debate, but balancing those two things is going 
to be a challenge. Mr. Lyons, did you have----
    Mr. Lyons. I just want to point out, Congressman Smith, 
that we have cut back severely in how much road building we do 
over the last six years, and, in fact, we have built a very 
small amount of road for timber access. What road we build, 
actually, is some multi-purpose value and, in fact, recreation 
use of roads has sky-rocketed. But, that doesn't dismiss the 
fact that we have a tremendous amount of road system which we 
can't maintain, as the Chief indicated, only 18 percent in 
Fiscal Year 1999. We will only get that up to 22 percent with 
our budget request for Fiscal Year 2000.
    So, we are trying to do the prudent thing. We are trying to 
stop future construction. We are trying to work with 
communities to decommission those roads we don't need, and we 
are trying to secure the resources to maintain those portions 
of the road system that we do need and, in fact, most of the 
construction or reconstruction that occurs is actually done by 
timber purchasers now, in entering areas where they are going 
to harvest.
    Mr. Adam Smith. There is no fee structure to fund the 
maintenance, although there is, of course, the sale of the 
land, theoretically, factors in the cost of building the road, 
which is a matter of debate as well, but there is no fee 
structure whatsoever for maintenance. It just has to, sort of, 
come out of the general budget, is that correct?
    Mr. Lyons That's correct.
    Mr. Adam Smith. On land exchanges, we just had a major one, 
not far from my district with Plum Creek and land exchanges 
make a great deal of sense when you look at the checkerboard 
pattern, at least in the Pacific Northwest, between public and 
private ownership. To unify certain areas can, you know, make 
better use of the land both for the timber companies and for 
the public, for that matter.
    A question I have: how do we figure out how much this land 
is worth? Because I went back and forth in the Plum Creek 
thing, trying to work both sides of it. There was the constant 
argument from the environmental community that the land that we 
were getting wasn't worth what we were giving up, and back and 
forth. I was very frustrated because, normally, when you are 
sitting down and doing a business deal, there is a way to sort 
of calculate the value of whatever you are giving up versus 
whatever you are getting. I think in the area of timber, it is 
a lot more difficult because if you are using it for 
preservation or public recreation, it has a different value, 
than if you are using it just to basically cut down and sell. 
How do you go about trying to reconcile that problem?
    Mr. Dombeck. I might ask Gloria to elaborate on the 
appraisal process, but there is a formal appraisal process that 
is used that we would be happy to provide you with the details 
of how that is handled. Is there anything you can add, Gloria?
    Ms. Manning. Basically, what we do is we have an appraisal 
and it has to meet appraisal standards, and the person that is 
dealing with us can select from a list of approved appraisers, 
anyone to go out and do the appraisal, and the appraisal that 
is selected by the person that is willing to sell the land, 
comes up with an appraisal that is different from the appraisal 
that we do, then a third party can be called in to reconcile 
the appraisal rate, but it is based on fair market value.
    Mr. Adam Smith Okay. Does anyone outside of the Forest 
Service, you guys, and the private landowner making the sale, 
have a right to get an appraisal, to get a process, I mean do 
the third parties have any access to that or do you basically 
have to represent those third parties?
    Ms. Manning. Are you talking about the person that has the 
land up for sale, or just the public in general?
    Mr. Adam Smith. Public in general.
    Ms. Manning. They can look at our process, but there are 
certain things that are in violation of private individual, 
private property owner's rights, so we can't display those 
things, but once the appraisal, once the land deal is over, 
then most of the records are open to public scrutiny. To 
protect the business, we can't indulge in letting other people 
know something about a private individual's----
    Mr. Adam Smith. Are there any other big land swaps in the 
works right now that you are aware of?
    Mr. Lyons. We constantly have land exchanges in play and 
the Cutwrench is one that we have been working on, just north 
of Yellowstone. But, the size and magnitude of the Plum Creek 
exchange, or the Weyerhauser exchange immediately before that, 
I'm not aware of anything of that size that is currently being 
considered. I want to point out one thing, Congressman, and 
that is our appraisers are all certified and we have a chief 
appraiser here in Washington who goes out and checks basically 
his field appraisers on an annual basis, so they are all kept 
up to speed, they have a requirement for continuing education, 
so that they keep their skills to a point where----
    Mr. Adam Smith. I would be interested in getting more 
information----
    Mr. Lyons. Be glad to provide it.
    Mr. Adam Smith. [continuing] about how, back to the 
original question, I mean, what are you appraising based on?
    Mr. Lyons. My staff can get that from--my people can talk 
to your people, basically, and we can work it out.
    [The information may be found at the end of the hearing.]
    Mr. Adam Smith. Thank you for your time.
    Mr. Lyons. Thank you.
    Mrs. Chenoweth. The Chair now recognizes Mr. Hayes for 
questioning.
    Mr. Hayes. Thank you, Madam Chairman. I apologize for not 
being totally and completely up to speed at my first hearing on 
these matters. Anyway, I am concerned with a number of things, 
the relationship between the private sector and the Forest 
Service.
    To start off on a positive note, we have a national forest 
in the eighth district of North Carolina that is called the 
Yuwaura National Forest. Tom Horner is in charge there and he 
is doing a great job. We have a good relationship with him. 
Some of the western issues I don't understand.
    Just a general question, Mr. Dombeck or Mr. Lyons, how do 
you, in your opinion, see the relationship developing on an 
ongoing basis between the private sector and the Forest Service 
in terms of cooperation, joint use of lands? The clear choice 
in my mind is projects, and you have looked at something we are 
working with down there, and that is a partnership between 
existing Federal lands and private ownership which will make 
more land available for public use, versus what appears to me 
to be in the testimony today, another massive lock-up of 
Federal lands.
    I have the pictures in my hand. I will let you answer that 
question, but how are you going to get firefighting equipment 
in when you have destroyed the roads? I have just been to Fort 
Bragg and they drop bombs and they don't make holes this big. I 
know you are trying to keep people out, but what if you have to 
get in yourself?
    Mr. Dombeck. Mr. Hayes, you have about three or four 
questions, I think, in sequence there. Let me start by saying, 
I was in the Yuwaura National Forest, and I know you pronounced 
it better than I do, the national forest last year, and I 
believe, they told me I was the first Chief, or at least the 
first Chief in a long time, that had been there and----
    Mr. Hayes. Good, they are older than the Rockies; these 
guys from Colorado don't realize that.
    [Laughter.]
    Mr. Dombeck. I had a wonderful field tour, and met with the 
staff. It is beautiful country. In fact, Randy Phillips, who is 
sitting right behind me, was the forest supervisor in North 
Carolina for a time and now he is doing a wonderful job as our 
National Forest System Budget Director.
    With regard to the public/private partnership concept, my 
experience in the more than two decades doing this kind of work 
is that the government process is more open today than it has 
ever been. In fact, there are more people interested in what we 
do and, as a result, we have more appeals, so the whole process 
is a very open, public process, which I believe is appropriate 
in a democracy.
    The thing that we continue to work on is, I am calling it 
collaborative stewardship, but call it cooperation, 
participation, whatever, the planning processes are all very, 
very open, public processes and if we look at watershed 
management and we look at ecosystems. Somebody said, ``You 
don't manage a stream on 40 acres; look at what happens 
upstream, impacts downstream.'' So the whole concept of 
ecosystem management has revolved around, I think, improving 
partnerships and improving working relationships with those 
that are interested to work with us.
    Now let me just, as a caveat, say that I do not, nor does 
the Forest Service, have any interest at all in regulating 
private lands. We function for technical assistance through our 
state and private forestry programs, application of research 
and things like that, but it has to be a partnership.
    Mr. Hayes. I think I hear you saying this is a good 
approach, a joint use, a combination approach. Madam Chairman, 
I don't know enough about this to ask but I am alarmed when I 
see--but we'll talk about that later. I will try to get better 
educated and come back for another question. Thank you.
    Mrs. Chenoweth. Thank you, Mr. Hayes. The Chair will 
recognize the members as they arrived at the Committee. So, Mr. 
Tom Udall, welcome to the Committee and you are recognized for 
questioning.
    Mr. Udall of New Mexico. Madam Chairman, thank you very 
much for that nice welcome, and I am very appreciative of being 
here at your Subcommittee hearing.
    Mr. Lyons and Mr. Dombeck, welcome and we look forward to 
working with you in the years to come. I wanted to ask a 
question about outdoor recreation. The Forest Service is the 
largest single supplier of outdoor recreation in the Nation, 
with over 900 million visitors annually, and yet you also have 
a backlog estimated at $1 billion to repair and maintain 
existing recreation facilities.
    As demand for outdoor recreation is growing, is the Fiscal 
Year 2000 budget request, which provides, my understanding of 
it is, it provides for an increase of only 1.5 percent over 
Fiscal Year 1999. Is that adequate to address this backlog?
    Mr. Lyons. Well, that is a good question, Congressman, and 
I will give you an honest answer. We have tremendous growth in 
outdoor recreation demand, as you indicated. We have attempted 
to develop new tools in working in partnership with the 
Congress to help supplant funds for recreation. The rec. fee 
demo. program has helped to some degree. We are looking at 
other tools such as concession reform, and the like, to help 
provide additional resources.
    But, I was personally disappointed in the mark we got from 
OMB on recreation-use funding, to be candid, and tell you that 
is an area where we could use an additional investment, 
although we had to make tradeoffs, that is how they came out.
    Mr. Udall of New Mexico. Thank you.
    Mrs. Chenoweth. Thank you very much, Mr. Udall. The Chair 
now recognizes another Udall, who brings in an institutional 
history to this Committee and we are very pleased that you are 
serving on the Committee. Mr. Mark Udall.
    Mr. Udall of Colorado. Thank you, Madam Chairman. I also 
appreciate the opportunity to be here today and hear the 
testimony from the Forest Service. Secretary, Chief, it is good 
to see you here.
    I had a couple of questions. I wanted to start with one 
about the Lands Legacy Initiative. As I understand that 
situation, the monies have been authorized since the Act was 
passed, but have not been fully appropriated, and my thinking 
on this is that it wouldn't actually result in an increase in 
your budget. I would like you to speak to that. Secondly, there 
is concern that this would add a lot of land to the Forest 
Service. I would like some clarification there. And then, using 
the Land Legacy monies, what kinds of lands would you add to 
the system, and in the long run do you think that saves you, 
and saves us taxpayers' money, or does it add costs to your 
budget?
    Mr. Lyons. I'll start out, Congressman, and I think Mike 
will focus in on the specific acquisitions to the national 
forest. You are correct, in that what the administration has 
proposed is a commitment of funds from land and water 
conservation funds that are in the Treasury that would provide 
permanent funding for several programs: for land acquisition in 
the Forest Service; for the forest legacy program, which is a 
conservation easement program providing long-term protection 
for forested lands--again, on a willing seller basis--and the 
person whose conservation easements funds for the urban and 
community forestry program, to increase funding for that 
program, as well as some additional funds for community 
outreach and to help communities in planning growth and 
development.
    I think what is significant about this initiative is, 
similar discussions are already occurring on Capitol Hill. 
Chairman Young and Chairman Dingell on the House side, as well 
as the Louisiana colleagues on the Senate side, have initiated 
dialogues with regard to somewhat similar efforts, so that we 
have structured our proposal somewhat differently.
    I think what is valuable and important about this is, as we 
deal with another initiative that I mentioned in my opening 
statement, the Livability Initiative, we can help communities 
plan for an orderly expansion and growth so as to ensure the 
protection of open space, the protection of naturalresources. 
In essence, the key elements, quality of life, that your 
constituents and others have come to appreciate, the reason 
they live where they live.
    Without those resources, we are going to see continued 
fragmentation of forest resources, continued loss of open 
space, of farmland. It is a significant issue which, as I 
mentioned in my opening statement, we addressed, Secretary 
Glickman and I, before the National Governors' Association 
meeting just the other day, and there was tremendous bipartisan 
interest in this. So I think this is an extremely valuable 
tool.
    The funds overall come, in part, from appropriations but 
mostly from land and water conservation funds, so it does not 
really result in an increase in our budget. Mike might want to 
talk a little bit about the specific land acquisition 
priorities that we have identified as a part of this.
    Mr. Dombeck. Thank you, Jim. What I would be happy to 
provide you with is a list of the land acquisition priorities 
for the Fiscal Year 2000 budget that amount to $118 million. 
There are 36 projects that are prioritized based upon a variety 
of criteria that we can also provide you, and would be happy to 
provide that for the record.
    [The information may be found at the end of the hearing.]
    Mr. Dombeck. I would also like to mention two other 
important parts of the Land Legacy program. One is urban and 
community forestry, with 60 million acres of urban forest in 
the United States. That is where about 80 percent of the people 
in the country live and it is important that we care for 
forests in these urban settings because the beauty of the trees 
provide the savings in storm water or runoff treatment costs, 
the savings in energy costs and things like that. For example, 
I read not long ago where the city of Atlanta, if you plant 
three trees around a single family home, of the right species 
and in the right location, you cut your air-conditioning costs 
by 40 percent if this is done, on a broader scale.
    Also, the stewardship incentive program is a program for 
providing assistance to private landowners, technical 
assistance, scientific information, so they can have a 
professionally developed plan for their wood lot, for whatever 
purpose they have, whether it is timber production, growing 
Christmas trees, wildlife habitat, whatever, and out of the 9.9 
million private landowners in the United States, less than 20 
percent have professionally based plans, that are important to 
the health of the forest.
    The Forest Legacy Program is another program that seems to 
be cranking up more in the southeast. For example, and it 
basically involves easements, the State of Tennessee is doing 
an assessment now and will be making determinations and 
recommendations for the year 2000, as to what areas they want 
to protect from encroachment of development where they feel 
maintaining intact forests for whatever purpose, recreation, 
wildlife habitat, forest production, are important. So there 
are several important parts to that Land Legacy Initiative.
    Mr. Udall of Colorado. Thank you. Madam Chairman, I think 
my time is about up, but I did want to acknowledge Congressman 
Hayes, and I do know the Appalachians are older than the 
Colorado Rockies. I also know that I have never been colder 
than when I was crawling through the rhododendron in North 
Carolina, but our mountains are taller than your mountains, and 
at one point yours were taller. That was then; this is now.
    [Laughter.]
    Mrs. Chenoweth. Thank you, Mr. Udall. The Chair now 
recognizes the distinguished new Congressman from California 
who comes with an impressive record in governmental affairs, 
Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chairwoman. It is very 
nice of you, and thank you for the opportunity to be here.
    I have no forests in my district, but it is one of the most 
important aspects of my State, so it is really incumbent upon 
me to listen first, and then ask questions. I have two 
questions, Madam Chairman, the first one is more of a comment, 
that has to do with the millions of miles of roads that you 
have to upkeep. Regarding those roads that are no longer 
serviceable or, as you say, you are putting out of service, are 
you looking at reforestation to close them, so that people 
don't utilize them for their own recreational purpose, and thus 
also prevent them from becoming hazards during rains by turning 
into mudslides? Is there a program that you are putting in 
place to be able to allow it to revert into its original state, 
such as it is?
    You can answer that later, but the other question has to 
do, actually, with the fact that the GAO reported in 1995 and 
then again in Fiscal Year 1997 that you collected, $1.85 
billion in sales receipts from timber, and 92 percent went to 
special off-budget accounts, returning only $125 million to the 
Treasury. This coming Fiscal Year 2000 budget proposes to 
reform that and use these accounts to fund the Forest Service 
operations through the regular appropriations process itself.
    What are the pros and cons? It is easy to say, well, you 
have done this with these funds but we want to do this with 
money. What is the effect this is going to have on the Forest 
Service and the job that you have to do?
    Mr. Dombeck. The last topic you mentioned was the trust 
fund issue, and this has been a tough issue for the Forest 
Service for some time and just to sort of put it in a larger 
perspective----
    Before you go any further, you did not comment on my first 
question.
    Mr. Dombeck. Okay.
    Mrs. Napolitano. First things first.
    Mr. Dombeck. Okay. First thing is first. The roads issue, a 
part of it that we didn't talk about earlier was the 
development of a long-term policy, which is really the most 
important aspect, I believe of what is going on with roads, and 
it is that the best science and technologies available be used 
to determine if and where roads are built. If roads are located 
in the wrong places where there are----
    Mrs. Napolitano. I am not talking about future roads. I am 
talking about roads that are no longer in service, and those 
that you are obsoleting, for whatever reason, and then 
reverting to forestry regeneration. That is to say, instead of 
putting in these tank traps--reforest roads, so that they 
become part of the Forest again. The reason I say that is 
because in my area we were working towards the conservation of 
the San Bernardino mountains in Whittier, of which Chevron 
owned a big parcel, and they deforested it. In other words, 
they made roads to seal some of their oil wells, and yet it is 
again becoming a pristine area, because it is back in 
conservancy. Trees that have been planted are beginning to make 
it look like mountainside again, like it was in the beginning.
    Mr. Dombeck. In Fiscal Year 1999, we decommissioned about 
3,000 miles of roads and we are proposing doing 3,300 miles in 
Fiscal Year 2000. Many of these, where obliteration of the road 
occurs, they are put back to their original contour, they are 
replanted, and the most important thing is that we use the best 
science and technologies to do that.
    Mrs. Napolitano. Okay, now the second one.
    Mr. Dombeck. Okay. The second question really has to do 
with long-term trends and this is the Knutson-Vandenberg fund, 
the salvage fund, and others, and we are coming off of an era 
where we were able to fund the management of watersheds and the 
management of national forests on the back of timber sales.
    What has happened over the course of the last 10 years is 
that the timber harvest has declined by about 70 percent. I am 
sure you are familiar with issues like the Pacific Northwest 
has all issues and some fairly tough debates that have occurred 
over the course of the last 10 years, and what has happened as 
a result of that, I believe now, somewhere in the neighborhood 
of 80 percent of our sales have other objectives beyond the 
production of commercial timber.
    Mrs. Napolitano. Pardon me, Madam Chairman, but didn't that 
Act specifically state that that was to be used for a specific 
purpose, not for putting into your budget, for administration 
purposes?
    Mr. Dombeck. Specific to the Knutson-Vandenberg Act, there 
are a variety of issues, of reforestation, watershed work, 
those kinds of things, that occurred in the sale area. Yes. 
What we have seen happen over time is we have seen the overhead 
increase but there is also an other issue that I want to point 
out and that is that part of the accountability issue that the 
Forest Service is grappling with now, and for the first time, 
we are using a consistent standard of direct and indirect 
costs, that is the standard established by the Federal 
Accounting Standards Board, so we have consistent accounting, 
and consistent definitions applied across the country for this. 
That has been a significant issue for it, and I am proud of the 
progress we have made on that.
    Mrs. Napolitano. When did you start that?
    Mr. Dombeck. In fact, we have just completed the first 
assessment of that within the last few months.
    Mrs. Napolitano. Thank you.
    Mr. Dombeck. It is displayed in the budget also, Ron 
reminds me.
    Mrs. Chenoweth. I thank the gentle lady for her questions.
    We will go another round of questioning. I have advised my 
Ranking Minority Member, and so if you have the time, we do 
need to ask more questions. As you know, we always have other 
questions that we will be submitting in writing.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. I did want to ask you, Chief Dombeck, and 
you can refer the answer to whomever you want, with regards to 
the program that has involved the construction of tank traps, I 
want to know how widespread is that, is it being instituted in 
other forests, and what can we expect in the near future?
    Mr. Dombeck. The real answer is that I don't know. It is 
the only one I have heard of. Let me ask Gloria if there are 
other programs like that around the country.
    Ms. Manning. Madam Chairman, when we look at the closures 
of roads, we have allowed the district manager to decide the 
best way to close the roads, and there are some that use rocks 
to put in the road, and some have used ditches, but to the 
extent that is out there, I couldn't tell you. I would have to 
go back and get that answer for you. However, they have had the 
option of selecting the best method for closures of the roads. 
We have also encouraged that they put signs on those roads, but 
I couldn't tell you at the moment how many of them have 
actually done that. We do reviews, but I would have to get back 
with you regarding the numbers that have not adhered to it or 
the number of forests that really have used the ditches, and 
how deep they are. I don't know that at the moment, but that is 
an allowable practice.
    Mrs. Chenoweth. It is an allowable practice?
    Ms. Manning. To use ditches. Not to the--I don't know the 
extent of what that is, but we have allowed them to use a ditch 
to indicate that you cannot go any further. We don't advocate a 
really deep one. But, we have not put a limit on how deep it 
can be, so I don't know how many of them were the same depth as 
the Targhee.
    Mrs. Chenoweth. Mr. Lyons, do you have knowledge with 
regards to the extent that this type of road closure is being 
used?
    Mr. Lyons. No, Madam Chairman, I don't.
    Mrs. Chenoweth. Okay. I wonder, Chief Dombeck, if you could 
advise the Committee by checking with your supervisors, 
regional supervisors, and forest supervisors with regards to 
any plans on any forest involving this kind of road closure.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. I know, and I do want to say for the 
record, Senator Larry Craig, took part in the hearing with me 
and I had worked with him since last summer when he first 
viewed the tank traps. He was as shocked and disappointed as I 
have been. As far as this Committee is concerned, the use of 
tank traps should not be an option. It is so utterly 
destructive. Let me ask you, Mr. Dombeck, have you viewed the 
road closures in the Targhee where we had the hearings on tank 
traps?
    Mr. Dombeck. No, I have not personally been on the Targhee 
to see those, and will be happy to provide you with areas where 
closures are occurring, using this type of method. Typically, 
those decisions are made at the field level.
    Ron, did you have a comment?
    Mrs. Chenoweth. All right, so you will provide for the 
Committee exactly what your supervisors are planning to do, and 
you are hearing from me, and I think it carries the weight of 
the Committee, that we do not believe that this kind of 
destruction should be an option in road closure.
    Sometimes, it is employed on private lands. But, if a 
private landowner constructed this kind of a tank trap, and 
there had been a broken back, as there was when one of the 
county commissioners broke his back, when he went into one, 
there would have been far-reaching legal ramifications. These 
are not benign ditches, and I am bringing it to your level. It 
is a serious, serious concern and it affects how we view the 
entire road maintenance program.
    Chief, I want to say that I read the statements you made in 
Missoula, Montana. You stated, ``Who would have thought that 
timber harvests across the national forest systems would 
decline by 70 percent in less than a decade?'' And then you 
went on to say that, ``The recreation industry needs to take 
note. They need to look at some of the issues the timber 
industry ran up against 20 years ago. The sideboards for 
recreation are no different than those for timber or grazing, 
or any other use of the national forest. They must work within 
the limits of the land.''
    Are you suggesting that under present policies we will also 
see recreation decreased by 70 percent, as happened with the 
timber industry?
    Mr. Dombeck. No, I am not. Not at all. What I am suggesting 
is that I think the most important thing we can do is let the 
land tell us what it can, that we work within the limits of the 
land. With whatever practice, or use, of the land occurs, I 
think that we all want to maintain forest health, we all want 
to maintain watershed function, and all those kinds of things. 
It is important that there are appropriate places for 
recreation, and the kinds of recreation, and we also have to be 
respectful of the land, so we don't degrade the soils, degrade 
water quality, with any practice, no matter what it is.
    Mrs. Chenoweth. In your view, if it is not 70 percent, what 
do you see the percentage of decrease may be, in recreational, 
outdoor activities?
    Mr. Dombeck. I, in fact, wouldn't even pretend to be able 
to make a projection, because I believe that has to be done on 
a watershed by watershed, community by community, basis, 
depending upon what that practice would be. It is not a 
decision that ought to be made at the national level.
    Mrs. Chenoweth. But would you, in your view, say there 
would have to be a substantial reduction of recreational 
activity?
    Mr. Dombeck. Possibly in some areas. I also believe there 
are other areas where we can channel various kinds of activity 
to take pressure off of areas that are more sensitive. In fact, 
we talked about land acquisition earlier. One of the focuses of 
land acquisition is to provide access, to protect habitats, and 
those kinds of things. It is a matter of management, really, 
making the determination as to what are the appropriate uses 
and where and at what levels, and those decisions, hopefully, 
are made at the local level.
    Mrs. Chenoweth. And you are speaking of multiple use land?
    Mr. Dombeck. Yes.
    Mrs. Chenoweth. Okay. I want to ask the Committee's 
indulgence for just one more question.
    The fir beetle outbreak in the Panhandle forest in Idaho 
will require a really aggressive management program to reduce 
future impacts and, as you know, your own maps show that this 
is a catastrophic area, the biggest, actually, concentration of 
catastrophic forest situations of any place in the United 
States. But apparently, the roads moratorium will severely 
reduce the Forest Service's own ability to treat these lands. 
Is this what you intended by the moratorium, and how will you 
manage both the roadless moratorium and taking care of these 
outbreaks?
    Mr. Dombeck. I am not familiar with the map, and the lay of 
the land, and I know that Dave Wright has been in here, and I 
presume that he briefed either you or your staff, as he briefed 
us. It is my understanding that the immediate concern is near 
private lands and already roaded areas, is the immediate 
concern.
    I want to also point out that the temporary suspension of 
road building does have an emergency provision in it where 
there are safety issues, things like that, we are very, very 
concerned about private property, homes, those kinds of things, 
then we have to look at that on a case by case basis.
    Mrs. Chenoweth. I want you to know, Chief Dombeck, that the 
explosion of the fir beetle outbreak is more than just next to 
the roads. I wanted you, personally, to know that it is going 
to take intensive management to take care of that very sad 
situation. Thank you very much. And I thank the Committee for 
its indulgence, and I recognize Mr. Adam Smith for questions.
    Mr. Adam Smith. Actually, I think I asked what I needed to 
ask in the first round, so I'm good, thanks.
    Mrs. Chenoweth. Mr. Tom Udall.
    Mr. Udall of New Mexico. Thank you, Madam Chairman. I 
wanted to ask the panel a question with regard to recreation 
users, because it seems to me from my experience in the 
outdoors, is that you have a lot of conflicts going on out 
there. The snowmobilers clearly want to use your lands, and yet 
you are getting complaints, I am sure, from people about the 
amount of pollution that is put out by snowmobiles, the amount 
of noise. I think compared to on-road vehicles, these are the 
most polluting vehicles in America today. I think, probably, 
there are agencies moving to do something about that right now.
    Then, clearly, your other users, cross country skiers, 
snowshoers, other users, want to have a measure of solitude. 
And so, it would seem to me that you as a land use agency are 
always trying to balance those needs, aren't you, and make sure 
that each of those users is getting a good experience out of 
public use of the lands?
    Mr. Dombeck. Yes, in fact, and that is a significant 
challenge. As various uses compete with one another and there 
really is a limit to the space we have. In fact, I was one that 
used to be very reluctant to talk about limits, it was almost 
un-American, but yet to talk about limits, as we think about 
the oceans and the open space that we have, the fact is that 
there are limits, and I think if we work within the limits of 
the land, the land will take care of us, generation after 
generation, but we have to keep in mind the fact that there is 
not enough to go around for everyone to have all of what they 
want, so we have to have to share and balance these uses, and 
that is what the local planning processes are about, to get 
public input to make those decisions. Jim, do you want to----
    Mr. Lyons. The only thing I would add, Congressman, as Mike 
points out, these are the kinds of decisions that really need 
to be made on a local basis, but I think the challenge of 
recreation management which really is growing in the national 
forests, comes of trying not only to manage natural resources, 
but people. As a result, we have got to develop new tools, new 
ways to better manage use of the national forests, to ensure, 
for example, that we can maintain the wilderness experience 
that people seek, when they enter a wilderness area, so that we 
can minimize impacts for natural resources.
    So, our budget reflects an attempt to secure additional 
resources, for example, to increase trail maintenance, where we 
face severe impacts because of excessive use. We have gone to 
evaluating carry capacity as a way to determine how many people 
to allow in a wilderness area, and in places where there is 
extreme impact, we have actually had to go to a permit system, 
to address that.
    Mike and I have been recently trying to deal with issues 
associated with wilderness management, and wilderness use, and 
last year we had quite a debate over the use of fixed anchors 
in wilderness areas, an issue that is being decided through a 
negotiated rule-making process now.
    So, we recognize those challenges and we are trying, 
through the development of a new recreation strategy, to 
develop a capacity to better manage recreation resources by not 
only managing the natural resources, but better working with 
recreation users in a partnership, so as to provide the kinds 
of experiences people have come to expect from national 
forests.
    Mr. Dombeck. Another area I would just like to highlight is 
the need to make additional investments in recreational 
research. That is an area that has been, over the course of the 
last few decades, that really not very much attention has been 
paid to it and we, Robert Lewis, our Deputy Chief for research 
and technology development is putting a focus on that, because 
it will be very, very important over the next few decades that 
we do it right.
    Mr. Udall of New Mexico. Thank you, and I appreciate very 
much the way you have enunciated the wise stewardship approach 
that you are trying to take to many of these resource use 
matters. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Udall. The Chair now 
recognizes Mr. Mark Udall.
    Mr. Udall of Colorado. Thank you, Madam Chairman. I had a 
comment, then I had a question.
    I wanted to extend my thanks to you for putting a 
negotiated rule-making process in place in regards to fixed 
anchors. I think that situation has the potential to become 
very adversarial. I have wasted, some people would say, a lot 
of days rock-climbing and enjoying the great outdoors in the 
West, but I know that it is not as simple a situation as it was 
made out to be by either side in this, so I will watch what 
transpires with great interest.
    Let me refer back to my colleague. Mrs. Napolitano talked 
about special funds. In my district, which is one of the more 
suburban western districts, but also includes a big chunk of 
the Arapaho forest to the west, some of the counties there are 
curious about the timber receipts replacement program that you 
have proposed. Can you explain how that would work, Chief 
Dombeck or Secretary Lyons, I don't know who----
    Mr. Dombeck. Yes, the initial request for us to take a look 
at this came from some of the counties in the Northwest, that 
had experienced significant downturns in timber harvest, as a 
result of the issues in those areas. In fact, part of the 
Northwest Forest Plan, a program to place the basically 
stabilized payments to counties, and then there was a sliding 
scale that, I believe, in 1997 they received 76 percent of, 
what level was it, of the maybe the 1989 or 1990 level, Ron? 
And then, now for the year 2000, I believe, that will drop to 
67 percent. So that is one aspect of it.
    Another aspect of it is, is where we have controversial 
timber sales--I can think of an example that describes this. A 
couple of years ago in Texas, there were $26 million worth of 
timber sales enjoined for a time, and had that gone on for, 
say, two or three years like often times they do, that would 
mean that those five counties wouldn't get 25 percent of that 
$26 million and have significant difficulty in meeting their 
budget, so you get this unpredictability associated with it. 
The objective there is to provide some long-term predictability 
for counties, for school systems, is one aspect of it.
    The other aspect of the question that I think we probably 
need dialogue on, and that is: is it for the richest country in 
the world, is it appropriate for us to depend upon receipts 
from controversial timber programs that are often appealed or 
enjoined, to pay for services like this? Is there a better way 
to do it?
    Mr. Udall of Colorado. This would not affect the so-called 
Pilt, or payment in lieu of taxes, programs that also exist?
    Mr. Dombeck. I believe that is correct, but then, more 
specifically, our proposal would be to stabilize this at a 
particular level and, in fact, Ron Stewart has been leading 
that effort, and a dialogue with the National Association of 
Counties, and others, to take a look at what options are out 
there to deal with that, and what might work, and what might 
not, and why.
    Mr. Udall of Colorado. Would this involve any cuts, Chief, 
or, what you are saying is there is going to be more 
predictability here, which in the long run is better for 
everybody involved?
    Mr. Dombeck. The proposal, I believe, although it is not 
final would hold that no county would get less money than it 
received in 1998, and I believe what we are working toward is 
they would have a choice of receiving the 1998 level or a level 
that represents an average over time of something like, maybe, 
a ten-year average, and they would have that choice.
    Mr. Udall of Colorado. When do you think you will get this 
over here for us to take a look at it?
    Mr. Dombeck. What is the status of that now, Ron? It is in 
the clearance process now, within the administration.
    Mr. Udall of Colorado. So in fairly short order?
    Mr. Dombeck. Shortly is the answer.
    Mr. Udall of Colorado. I see I still have the green light. 
Another quick question: the BLM, your friends in Interior 
Department, and you, of course, are working on this trading 
post concept, I believe, in Colorado, where it is a one-shop-
shopping for people. Can you talk a little bit about that, and 
do you have plans further down the road for it?
    Mr. Dombeck. Yes, in fact we will be meeting with the 
leadership of the BLM, as a matter of fact, Madam Chairman, we 
will be meeting in Boise, Idaho, at the end of March with the 
leadership of the BLM. This will be one of the issues we will 
talk about.
    The whole objective is to try to provide one-stop shopping 
for local communities and our most aggressive approach a few 
years ago was in the State of Colorado, where we basically 
shared expertise in a case where the Bureau of Land Management 
had more range management expertise, while the Forest Service 
had more forest management expertise.
    We shared that, we saved money, we saved positions, and 
when we talk about this to members of local communities, they 
sort of say, ``Well, you know, you should have been doing this 
all along, because it makes sense.''
    In the State of Oregon, the regional forester and the BLM 
state director will be moving into the same building, in fact, 
I hope they will have a common reception area, so people would 
go for permits, for services, for information, would have it 
right there at their fingertips, without having to go to one 
building and one agency, then another building, and another 
agency.
    Another program that is similar to that is in recreation 
where there is now a website. It is called recreation.gov, and 
you can sign onto that website and get information on any 
campground, on any facility, whether it is the Corps of 
Engineers' Bureau of Land Management, National Park Service, 
Fish and Wildlife Service, Forest Service, BLM, and it just 
makes a lot of sense to the public and delivery of services and 
information to them.
    Mr. Udall of Colorado. Thank you, Madam Chairman. That 
makes sense, particularly in Colorado where we have, in some 
cases, 14,000 mountains that are on BLM lands and we have 
grasslands that are administered by the Forest Service. So , I 
think it is a great step forward.
    Mrs. Chenoweth. Thank you, Mr. Udall. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Madam Chairman. I have no 
further questions, but I thank you for the opportunity to be 
able to listen to more of the areas that are important to my 
State. I look forward to having your card so I can call you 
when I have a problem. Thank you.
    Mr. Lyons. Congresswoman, if I could just make one comment. 
You opened today by saying you don't have any forests in your 
district, and I just want to point out, though this is often 
overlooked, Mike mentioned the urban and community forestry 
program that we have ongoing. We do a lot of work in Los 
Angeles, in that regard and, in fact, we have a program called 
the Urban Resources Partnership which is active in working 
throughout the city in helping community groups and 
neighborhood groups protect open space, do tree planting work.
    We have an initiative this year, that I thought I would 
just bring to your attention, to create what we are calling a 
children's forest in Los Angeles, which is really intended to 
try and help children understand land stewardship, their goals, 
and we are working with a whole host of private partners, the 
city, LA tree people, Audubon Society, Mothers of East LA, to 
try and put in place a program that will allow children to 
understand the wonders of the great outdoors, even if they 
never get the chance to go beyond their own backyard, or 
neighborhood.
    Mrs. Napolitano. Will you add the Whittier Conservancy to 
that?
    Mr. Lyons. We would be glad to.
    Mrs. Napolitano. They have just taken on probably about 
3,000 acres and set it into conservancy. I have been working 
with them for the last five years and we are moving into the 
Brea and Coal Canyons to be able to conserve those areas for 
our children and grandchildren. So, I am very interested.
    As for the tree people, we would love to have reforestation 
happen in those hills, because one of the gasoline companies 
that owned a parcel of almost 1,000 acres, like I said, built 
roads and really denuded, if you will, what was there, and it 
is now being reforested with the help of community groups, the 
tree people, scouting groups, etc., so I would love to have you 
step in and give us a hand on that.
    Mr. Lyons. We will see to it.
    Mr. Dombeck. What I will do is, I would like to have our 
state and private forestry staff contact your office and 
provide you with additional information.
    Mrs. Napolitano. Call Mike Torra.
    Mr. Dombeck. Thank you.
    Mrs. Napolitano. Thank you, sir. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mrs. Napolitano. I do want to 
bring this portion of our hearings to a close now, and I thank 
the members for being here.
    I also want to say, for the record, that I brought up 
concerns based on my last hearing in Idaho, the Committee's 
last hearing in Idaho. I also want to say, for the record, that 
the regional forest supervisor down there has indicated in 
writing that the construction that went on those roads were 
tank traps. I bring that up because this is a serious problem, 
and I don't want us to get off on a bunny trail as to 
definitions. I bring the problem to you in this hearing because 
it is a serious safety and environmental problem. I also think 
that it is a huge overreach in terms of the road closures and I 
don't understand exactly. I don't want to ascribe a statement 
to it. I just don't want to do that. I don't want to go there, 
because it is tremendously overreaching.
    Also, in closing, I want to say, on behalf of the 
Committee, how much we have enjoyed working with Mr. Francis 
Pandolfi. I think he was a good choice, and we will all miss 
him.
    I want to say that the GAO says that the Forest Service's 
books are still in disarray. That the person who was in the 
process of correcting this problem is now leaving, and I wanted 
to ask you again, for the record, when do you believe that we 
will see a clean set of books?
    Mr. Dombeck. We hope to have our real property inventories 
complete by late summer and the thing that you will see in my 
written testimony where I ask for both your support and 
patience, as we move through fixing the accountability and the 
books of the Forest Service. This is an issue that evolved over 
a decade or more in a large decentralized organization, and the 
challenge of getting our data systems in place where we have an 
organization that does 75 million transactions a month, and I 
want to point out that, even though Francis is leaving, we have 
an excellent staff, some of whom have been in the Forest 
Service, and some who are new to the Forest Service, like 
Vincette Goerl, who comes to us from the Customs Service. She 
helped get a clean financial audit for the Customs Service, 
manages a large organization.
    When I was at BLM, as acting director, we had a clean 
financial audit. We know what have got to do. The Forest 
Service is a much larger organization and it took Jack Wells 10 
years to get GE where it needed to be, so it is going to take 
us time. Certainly we are hopeful that we will have at least a 
qualified opinion. Vincette? Let us go straight to the source.
    Ms. Goerl. Madam Chairman, we have efforts underway to 
clear up our material weaknesses in 1999 and 2000, and hope 
that we can achieve a clean opinion in 2000. It will be a 
challenge, but we are certainly putting in all the efforts 
along with a new financial system, to do that.
    Mrs. Chenoweth. Thank you very much. I want to thank the 
panel for their testimony, and we will be, as you know, back in 
touch with you with further questions. As you also are very 
familiar with the fact that the record remains open for a 
limited period of time for you to amend any statements that you 
may wish to make. Thank you very much. And this panel is 
excused.
    [Whereupon, at 2:40 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
  Statement of James R. Lyons, Under Secretary, Natural Resources and 
              Environment, U.S. Department of Agriculture

    Madam Chairman, Congressman Smith, Members of the 
Committee, thank you for the opportunity to appear before you 
today to discuss the Forest Service's proposed budget for 
Fiscal Year 2000.
    I would like to present a brief overview of our budget 
request and highlight some of the priorities we've identified 
in terms of three broad areas. Chief Dombeck will address these 
and other areas in greater detail. The three areas I want to 
highlight are; (1) the priorities of the President and the 
Department of Agriculture in managing the rich natural 
resources of this nation's forest and range lands; (2) the 
Forest Service priorities under the leadership of Chief Dombeck 
to implement the service's Natural Resource Agenda; and (3) the 
emphasis being placed on the Forest Service to be accountable 
to Congress and the American people for its performance and use 
of Federal funds.
    Last year when I testified before several committees, 
including this one, I stated that despite the contentious 
debates on several Forest Service management issues, Congress 
and the Administration have more agreement than we do 
disagreement. Despite the differences regarding budget 
priorities and several environmental riders which were part of 
the fiscal year 1999 appropriations debate, we worked together 
and developed a bill which helped the Forest Service move 
forward towards improved forest and ecological health and 
sustainability. I continue to believe we have common interests, 
and greater agreement than disagreement, although I'm sure we 
will be involved in tough debate again over this year's budget.
    First, a brief overview. This budget proposes an overall 
increase in discretionary appropriations of 6.5 percent. The 
budget includes a healthy emphasis on the basic programs 
necessary for managing the agency's 192 million acres, which 
include a $30 billion infrastructure, 383,000 miles of road, 
74,000 authorized land uses, 23,000 developed recreation sites, 
and uncounted dispersed recreation sites. In addition, the 
budget proposes a substantial increase of $37.2 million to 
enhance the agency's leading role in forest and rangeland 
research. Finally, the budget proposes major increases in State 
and Private Forestry programs, which is a key element of the 
President's initiatives.

President and Department Priorities

    Let me turn now to the important priorities of this 
Administration. As you know, the President has proposed several 
initiatives in the fiscal year 2000 budget including two that 
were first initiated as part of the fiscal year 1999 budget. 
Principally, the President's goal in fiscal year 2000 is to 
develop Forest Service programs that help assure that all the 
nation's lands, not just National Forest lands, provide clean 
water for the taps of faucets, open spaces and expanded 
recreation opportunities for rural and urban residents alike, 
and improved sustainability of products, wildlife, and 
biodiversity on healthy public and private lands.
    Thus, the President has proposed the Lands Legacy 
Initiative, the largest one year investment ever in the 
preservation of America's lands, and the continuation of the 
Clean Water Action plan to continue to focus on priority 
watersheds where protection and improvement programs are so 
desperately needed.
    Madam Chairman, I believe the Lands Legacy Initiative is 
bold and essential for America as we enter the new millennium. 
This $1 billion program, which includes $217.6 million in 
Forest Service funding, will focus on working with states, 
tribes, local governments, and willing private partners to 
protect great places, conserve open space for recreation and 
wildlife, and to preserve forests, farmlands, and coastal 
areas. Currently, 30 million people live within an hour drive 
of national forest land. As the President noted in his State of 
the Union address, 7,000 acres of farmland and open space are 
lost every day. The number of tracts of forestland of 50 acres 
or less doubled from 1978 to 1994 as our landscape was carved 
into smaller pieces. Access to, and the health of, these lands 
is diminishing as a result of this fragmentation. To address 
these serious concerns, the President's budget proposes to 
significantly increase funding of the agency's State and 
Private Forestry Programs, with an increase of $80 million or 
48 percent over fiscal year 1999. With this increase we will 
focus on promoting the retention of open space and smart growth 
that will provide conservation opportunities and experiences 
for many additional millions of Americans.
    The Forest Service is the national expert at providing 
recreation to the public through family oriented recreation 
such the Sunday drive, weekend camping trip, short family hike, 
or week long backpack or rafting trips. The Lands Legacy 
initiative, through emphasis on State and Private Programs and 
increased Land Acquisitions promotes this type of recreational 
access as well promoting the availability of clean water, 
healthy watersheds, and open space. The national forests are 
the watersheds for more than 902 communities in 33 states. Many 
millions of additional people depend on water provided from 
other forested lands. Through emphasis on state and private 
partnerships, which promote smart growth acquisitions and 
easements, more Americans will be assured of long term access 
to public land and the clean water it provides.
    The fiscal year 2000 budget contains several additional 
initiatives that are important to note.
    As was proposed last year, the Administration again intends 
to forward legislation that will stabilize payments to states. 
I believe it is essential to provide these payments through a 
process that does not link the output of forest products to the 
education of our rural school children or the quality of the 
roads used by their parents. If enacted, the legislation will 
result in long term predictability of payments that the states 
and counties of America need.
    Other legislative initiatives are important aspects of this 
budget, including proposals to maximize return to the 
government for authorized uses of national forest land to 
improve forest visitor experiences. The President also will 
propose legislation which requires purchasers who harvest 
timber and special forest products from national forests, pay 
fair market value for these products and a greater share of the 
costs of managing these programs, thus reducing the use of 
appropriations.

Natural Resource Agenda

    The President's initiatives are fully compatible with the 
aggressive program initiated by Chief Dombeck last March which 
established the Natural Resource Agenda. I am proud to support 
this four point program which focuses agency attention on 
watershed protection and restoration, sustainable forest 
management, the forest service road system, and the critical 
recreation program.
    This budget strongly supports the Natural Resource Agenda 
with significant funding increases. Wildlife, grazing, fire, 
fisheries, and other programs increase by $48.6 million to 
support watershed health and restoration. Increased funding 
contained in this budget is essential for restoring and 
protecting watershed health.
    A second element of the agenda promotes sustainable forest 
management. With proposed budget increases of $113.2 million, 
programs such as Forest and Rangeland Research, in addition to 
the State and Private programs I have already mentioned, will 
engage coalitions among communities, conservationists, 
industry, and all levels of government to collaborate and 
integrate management of national forest lands with those 
practices on state, tribal, local and non-industrial private 
lands in order to promote long term land health.
    Management of the national forest road system is a third 
component of the Natural Resource Agenda. With a funding 
increase of $22.6 million, this road system, which is expansive 
enough to circle the globe more than 15 times, will receive 
critically needed funds for maintenance.
    As you know, Secretary Glickman recently announced a new 
interim rule for road management. While this issue is very 
contentious, all of us can agree that the national forest road 
system is critical to land health and is essential to meet the 
recreation and livelihood of millions of Americans. Simply put, 
I strongly support Chief Dombeck in his effort to significantly 
reduce new road building until we are better able to manage the 
road system we presently have. The President's budget will 
provide increased funds for road maintenance and allow the 
Forest Service to implement road management plans for America's 
long term access and land health needs.
    Lastly, as part of the Natural Resource Agenda, the 
President's budget continues to provide strong emphasis on 
recreation. The Forest Service is the largest supplier of 
recreation in the United States. We are pleased with the 
emphasis Congress has also shown in promoting recreation. The 
Recreation Fee Demonstration Program is one such example, and a 
resounding success. Through this program, we have improved 
facilities and the visitor's experiences at fee sites. However, 
I want to emphasize that 95 percent of recreational experiences 
on the national forests involve use of non-fee dispersed sites. 
The President's budget continues to emphasize this area of 
recreational use through appropriated funds. I strongly 
encourage your continued support of these appropriations in 
order to continue quality experiences for those who use the 
forests for highly dispersed activities, and who are either 
unable to pay for use of these sites, are not close to fee 
sites, or who desire to recreate in the undeveloped non-fee 
areas of the national forests.
    Also in support of the Natural Resource Agenda, I want to 
note that the Committee of Scientists, commissioned by the 
Secretary to review land and resource management planning 
processes, are soon to release their landmark report. Shortly 
thereafter the Forest Service will complete preparation of 
proposed land management planning regulations which will guide 
future revisions to land management plans. These regulations 
are long overdue. I am confident when implemented these 
regulations will result in a long-range planning framework 
suited to accomplish sound resource management in accordance 
with environmental laws and the mission of the Forest Service.

Forest Service Accountability

    The success of the Natural Resource Agenda and the 
initiatives proposed by the President are critical to long term 
health and conservation of the national forests and the 
nation's state, local, and non-industrial private lands. 
Effective Forest Service leadership is what will facilitate 
these long term successes. However, leadership will not be 
successful if the Forest Service does not aggressively address 
what can only be described as severe lapses in its financial 
management and overall performance accountability. As you know, 
the agency's financial health, decision making, and overall 
accountability has been scrutinized and extensively criticized 
in more than 20 studies initiated by Congress, the Department, 
and internally.
    Let me say, I have no doubt the Forest Service has got the 
message! Through reorganization and placement of professionals 
in top leadership positions, the agency has placed the 
financial management role in a position that assures attention 
and oversight in equal stature and priority to its natural 
resources management agenda. While I believe it is important 
for Congress to actively perform its oversight of the agency's 
financial condition, I believe it is also important to ask for 
some degree of patience. The agency's books and records took a 
decade or more to turn sour. It will take at least the rest of 
fiscal year 1999 to implement a new general ledger and at least 
through fiscal year 2000 to receive a clean financial opinion.
    Meanwhile, it is clear the Forest Service is taking action 
to improve. This includes paying detailed attention to 
management of indirect costs, restructuring the process for 
charging overhead to permanent and trust funds, and actively 
working on implementing performance measures consistent with 
the Results Act, which should ultimately lead to proposals for 
a revised budget structure that reflects the integrated nature 
of work it accomplishes on the ground.
    Madam Chairman, in my testimony today I have discussed 
important Presidential initiatives, the Natural Resource 
Agenda, and progress being made to improve agency 
accountability in relation to the fiscal year 2000 budget. 
These three areas represent important areas of change for the 
Forest Service as we approach the next century. I am confident 
that with your support we can work together to build a Forest 
Service program that accomplishes long term land health 
objectives, delivers clean water, provides quality access, 
assures diverse recreational opportunities for greater numbers 
of Americans, and continues providing strong livelihoods for 
communities for generations to come.
    Thank you for the opportunity to address you to answer any 
questions you may have.
                                ------                                


         Statement of Mike Dombeck, Chief, USDA Forest Service

    Madam Chairman, Congressman Smith, Members of the 
Committee, thank you for the opportunity to appear before you 
this morning to discuss the Forest Service's proposed budget 
for fiscal year 2000.
    Only three weeks ago, I addressed our employees in 
Missoula, Montana about the state of the Forest Service. I 
would like to review some ofthose remarks today as I discuss 
the proposed budget for the Forest Service.
    I am honored to have served as Chief of the Forest Service 
for over two years. During this time, I have had the pleasure 
to be a part of the continuing evolution in the direction of 
the Forest Service. I have come to appreciate that many of the 
conflicts we face today over management of natural resources 
are very similar to the conflicts faced by the agency's first 
Chief, Gifford Pinchot. What made the Forest Service unique 
under his leadership was a set of conservation values that were 
not always popular, but which reflected the long term interest 
of land health. Madam Chairman, as in the days of Gifford 
Pinchot, the values put forth in the President's fiscal year 
2000 budget emphasize long term health of the land.
    In my testimony today I want to concentrate on the values 
of healthy land by elaborating on three key areas set forth by 
Undersecretary Lyons; (1) the major changes reflected in the 
President's budget that set a new leadership direction for the 
Forest Service; (2) how the Forest Service Natural Resource 
Agenda reflects these values; and (3) how we are addressing 
important accountability issues. Let me first address some 
overall perspectives about where the Forest Service has been 
and where the Secretary and I want to take it in the future.
    Over the last decade there has been a significant change in 
how society views conservation values. Many people have ceased 
viewing publicly owned resources as a warehouse of outputs to 
be brought to market and instead have begun assigning greater 
value to the positive outcomes of forest management.
    The result of such change is that we often find ourselves 
caught in the middle between competing interests. Some look to 
you, the Congress to ``fix'' the legislation that they perceive 
has negatively affected their interests. Others push to limit 
the number of appeals, so the agency can get on with producing 
timber or stopping timber production, as the case may be. Still 
others ask courts to resolve land use policies through 
litigation.
    Too often we find ourselves waiting for someone else to 
resolve our issues for us. I think that must end. The budget we 
are going to talk about today sets the framework for the 
Congress, the Administration, the States, local governments, 
and private parties to begin working together in a new way to 
collaboratively resolve conservation conflicts. The central 
premise of our approach is that by restoring and maintaining a 
healthy land base on public and private lands alike, we can 
ensure that our children, and their children's children enjoy 
the benefits of land and water.
    Madam Chairman, with healthy watersheds as a foundation, 
there is room for a reasonable flow of outputs; timber and 
livestock specifically, but many other products also. There is 
and will be the ability to produce cleaner water. There is a 
land base which will allow us to set aside additional places 
untrammeled by human beings, and there is an ability and a 
necessity to preserve now and for generations to come, 
additional open spaces before such spaces are fragmented or 
degraded due to private land development, urban sprawl, and 
other such issues.
    For those who advocate a return to timber outputs of 10 
years ago, or those who advocate a ``zero cut'' philosophy, I 
say it is time to inject realism into the debate. The 
President's budget provides funding for outputs which are 
consistent with land health. I can not visualize a circumstance 
when such outputs will ever be at the level of 10 years ago, 
but I say to the other side of the spectrum, timber harvest 
will, and should continue. The President's budget contains 
innovations that recognize the ability of people to restore 
ecosystems from those already degraded, using modern science 
and technology, where people have either contributed to poor 
land health by over using the land, built roads in unstable or 
overly steep terrain, or prevented natural processes such as 
fire. We can improve the health of these areas, and do so by 
not only allowing the removal of forest products but by 
demonstrating in some cases such activities can contribute to 
forest health. The more timber harvest contributes to 
ecological sustainability, the more predictable timber outputs 
will be. This budget presents a solid balance that if enacted 
will help accomplish these goals.
    The Forest Service serves many people. With our 192 million 
acres, 383,000 miles of roads, $30 billion infrastructure, 
74,000 authorized land uses, 23,000 developed recreation sites, 
tens of thousands of dispersed recreation sites, and 35 million 
acres of wilderness, the national forests are many things to 
many people. Forest Service has the premier Forest and 
Rangeland Research organization in the world which is involved 
in research to improve land health and to improve the 
experiences enjoyed on the land by Americans.

Specifics of the President's Budget

    The President's budget creates a new focus on State and 
Private Forestry programs. Over time, our leadership capacity 
to assist those who manage the more than 500 million acres of 
forests outside of the national forest system has diminished. 
One of our greatest contributions to society will be our 
ability to bring people together to provide technical 
assistance and scientific information to states, private 
landowners, and other nations of the world. The fiscal year 
2000 proposed budget contains an increase of $80 million in 
State and Private Forestry, and $37 million in Forest and 
Rangeland Research to increase our involvement in this critical 
collaborative role. Consider that we have been spending about 
$2 billion annually to manage the 192 million acres of national 
forest land, yet spend less than $200 million in support of the 
500 million acres of state managed and privately owned lands.
    With this budget, support to state and locally managed 
lands and non-industrial private lands dramatically increases. 
The budget proposes $218 million for the Lands Legacy 
Initiative, which will make new tools available to work with 
states, tribes, local governments, and private partners to 
protect great places, to conserve open space for recreation, 
and wildlife habitat; and to preserve forest, farmlands, and 
coastal areas. This $218 million is part of the President's 
bold government wide initiative to provide $1 billion for the 
Lands Legacy Initiative.
    The President's budget also continues support for key 
programs initiated with the fiscal year 1999 budget by 
targeting an increase of $89.4 million for the Clean Water 
Action Plan to maintain priority attention to the health of 
watersheds on Federal, state, and private lands. The budget 
also proposes $6 million to support the Climate Change 
Technology Initiative and an increase of $6 million for the 
Global Change Initiative, both of which are aimed at improving 
the long term health of the climate that supports life on this 
planet.
    Forest and Rangeland Research programs are an important 
aspect of emphasis in the President's budget. In addition to 
funds to support global climate issues, an additional $14 
million is proposed for the Integrated Science for Ecosystem 
Challenges project which addresses science and technology needs 
related to ecological systems.
    The President is also proposing as part of this budget 
several new legislative initiatives. Most notably, a proposal 
similar to one put forward last year, to stabilize payments to 
states and counties by separating payments to counties from a 
reliance on receipts generated by commodity production. At the 
beginning of my testimony, I noted the need to manage outputs 
from the national forests in a manner consistent with land 
health. In doing so, emphasis for producing those outputs has 
changed. For example, today a significant number of timber 
sales are sold for stewardship purposes rather than pure 
commodity objectives. There is an increase in the sale of dead 
or dying timber. In these cases receipts are less than were 
experienced several years ago. I expect this trend to continue 
particularly in the west. What we are asking is, why should the 
richest country in the nation finance the education of rural 
schoolchildren on the back of a controversial Federal timber 
program? The Forest Service has a stewardship responsibility to 
collaborate with citizens to promote land health. Collaborative 
stewardship implies an obligation to help provide communities 
with economic diversity and resiliency so they are not 
dependent on the results of litigation, the whims of nature or 
unrelated social values to educate their children and pave 
their roads. We need to work together so states and counties 
can anticipate predictable payments on which to base education 
and road management decisions.
    Several other legislative proposals are also soon to be 
submitted including proposals to transfer timber sale 
preparation costs to timber purchasers through user fees, a 
proposal to reform concession management, increased emphasis on 
obtaining fair market value for land uses and timber, and 
establishing a fund to manage the sale of special forest 
products.

Natural Resource Agenda

    The President's budget contains many important initiatives. 
It also contains a broad program of funding for management of 
national forest lands. Just one year ago I announced the 
Natural Resource Agenda, which is a comprehensive science based 
agenda that will lead management of the agency into the 21st 
century. As an integral partner with the Government Performance 
and Results Act, this agenda focus on four areas; (1) watershed 
health and restoration, (2) sustainable forest and grassland 
ecosystem management, (3) the national forest road system, and 
(4) recreation.
    I want to highlight briefly our emphasis in each of these 
areas. A retired Forest Service employee offered me some advice 
a while back. He said, ``if you just take care of soil and 
water and everything else will be OK.''Multiple use does not 
mean we should do everything on every acre simply because we 
can. We must protect the last best places and restore the rest. 
Forest Service lands are truly the headwaters of America, 
supplying river systems and recharging aquifers. They contain 
riparian, wetland, and coastal areas that are essential for the 
nation's water supply and prosperity. The President's budget 
provides an increase of $48.6 million included in programs such 
as wildlife habitat management, watershed improvements, 
fisheries habitat management, rangeland vegetation management, 
threatened and endangered species habitat management, and state 
and private forest health programs. These increases will allow 
the Forest Service to make important watershed restoration and 
protection efforts.
    Restoration and maintenance of watershed health is 
contingent on quality land management planning. As you know, 
the Committee of Scientists will issue their final 
recommendations on forest planning soon. I expect they will 
suggest that we focus planning efforts on long-term 
sustainability, more effectively link forest planning to budget 
and funding priorities, practice collaborative stewardship 
through use of diverse and balanced advisory groups, and allow 
for adaptive management through monitoring. I look forward to 
issuance of the Committee of Scientists Report from which 
revised forest planning regulations will be developed in late 
Spring. I believe new planning regulations will be invaluable 
in breaking the forest planning gridlock that is hampering 
national forest management in so many areas.
    A second area of the Natural Resource Agenda is sustainable 
forest and grassland management. The President is proposing a 
billion dollar initiative to protect open space, benefit urban 
forests, and improve the quality of life for the 80 percent of 
Americans living in urban and suburban areas. Through 
sustainable forest and grassland management, the Forest Service 
will play an essential role in accomplishment of this 
initiative. The President's budget provides an increase of $113 
million in State and Private and Research programs which are 
integral to protecting and restoring the lands and waters that 
sustain us. We will collaborate with state fish and wildlife 
agencies, state foresters, tribes, and others to develop 
conservation and stewardship plans for an additional 740,000 
acres of non-industrial private forestland. We will help states 
protect an estimated 135,000 additional acres of forestland 
through acquisitions and conservation easements. We will 
acquire environmentally sensitive lands through the Land and 
Water Conservation Fund, and we will include nearly 800 more 
communities in efforts to conserve urban and community forests. 
In addition, 300,000 more hours of conservation training will 
be provided to local communities.
    Madam Chairman, I am truly excited about budgetary emphasis 
in sustainable forest and grassland management through 
cooperation and collaboration. This emphasis will carry into 
many programs including fire management where we will employ 
fire as a tool to meet integrated resource and societal 
objectives across landscapes. We will give priority to high-
risk wildland/urban interface areas where people, homes and 
personal property are at risk. We will employ fire as a tool to 
aid threatened and endangered species conservation and 
recovery, to reduce accumulated fuels within and adjacent to 
wilderness and reduce fuels to help lower long term costs of 
suppressing wildfires.
    Now I would like to turn to one of the more challenging 
aspects of the Natural Resource Agenda. That involves 
management of the National Forest Road System. As you know, on 
February 11, I announced an interim suspension of road 
construction in most roadless areas of the national forest 
system. We offer this timeout to reduce the controversy of 
roadless area entries in order to reduce damage to a road 
system which is already in disrepair.
    A personal source of frustration is that few people or 
interest groups are focussed on the issue of our existing road 
system as opposed to the roadless area issue. Yet if we care 
about restoring the ecological fabric of the landscape and the 
health of our watersheds, we must concentrate on areas that are 
roaded in addition to those that are not.
    The President's budget proposes a $22.6 million increase in 
the road budget, primarily for maintenance. The agency has an 
estimated road maintenance backlog of over $8 billion. 
Meanwhile we are only maintaining 18 percent of our roads to 
the safety and environmental standards to which they were 
built. With the proposed funding level in the fiscal year 2000 
budget, we will increase by 50 percent from 199.8, the miles of 
road to be decommissioned or stabilized. We will increase the 
percentage of forest roads maintained to standard from 18 
percent to 24 percent.
    With roads that could encircle the globe many times, our 
road system is largely complete. Our challenge is to shrink the 
system to a size we can afford to maintain while still 
providing for efficient and safe public access in a manner that 
protects land health.
    Over the next 18 months, we will develop a long term road 
policy with three primary objectives: (1) develop new 
analytical tools to help managers determine where, when or if 
to build new roads, (2) decommission old, unneeded, 
unauthorized, and other roads that degrade the environment, and 
(3) selectively upgrade certain roads to help meet changing use 
patterns on forests and grasslands.
    Management of roads is very important to local communities 
that rely heavily on these roads for livelihoods and rural 
transportation. I expect decisions about local roads to be made 
by local managers working with local people and others who use 
or care about our road system. We will obviously continue to 
provide access to and through forests. However, it is clear 
that we simply cannot afford our existing road system.
    The fourth element of the Natural Resource Agenda involves 
recreation. The President's budget provides strong support to 
the recreation program. With appropriated funds totalling $288 
million, and additional funds provided from the recreation fee 
demonstration project receipts and the ten percent road and 
trail fund, this program will continue to provide strong 
support to the 800 million annual visitors which we expect to 
increase to 1.2 billion over the next 50 years.
    The Forest Service recreation strategy focuses on providing 
customer service and opportunities for all people. The 
successful recreation fee demonstration program has served many 
people at the sites operated under the program through improved 
visitor experiences and repair and upgrade facilities which 
were badly in need of attention. I strongly support 
continuation of this program. I do want to pass on one caution 
lest this program is viewed as an answer for reducing future 
recreation discretionary funds. The recreation fee 
demonstration program serves many people in a limited number of 
recreation sites. The Forest Service recreation program is 
highly dispersed. It is the place for a family drive or hike on 
a Sunday afternoon, a weekend camping trip, or a week long 
grueling hike in the rugged backcountry. Many of these 
experiences do not lend themselves to a recreation fee 
demonstration type program. In fact, less than 10 percent of 
forest recreation visits occur at fee demonstration sites. As 
the backyard playground for many Americans, it is essential we 
maintain a recreation program that allows enjoyment of the 
national forests without charge in addition to fee programs in 
limited areas.
    A key part of enhancing this dispersed recreation is 
through our wilderness management program. The President's 
budget includes an increase of $7 million for protection and 
restoration of natural conditions in wilderness and to mitigate 
the impacts of high use areas adjacent to large population 
centers. The wilderness legacy is a crown jewel. I am committed 
to increasing the Forest Service commitment to the Wilderness 
Act and intend to give more emphasis through increased land 
management planning and re-establishment of a national 
wilderness field advisory group.
    Each of the four emphasis areas of the Natural Resource 
Agenda links directly to one or more of the goals of the 
Results Act Strategic Plan. I am pleased that the President's 
budget supports this plan for moving forward.

Forest Service Accountability

    Successful implementation of the President's initiatives 
and the Natural Resource Agenda is dependent on having the 
trust of Congress and the American people. To be trusted, we 
have to be accountable for our performance. We have to be able 
to identify where our funds are being spent, and what America 
is receiving in return. We have to do this as efficiently as 
possible in order to assure that a maximum amount of funds are 
spent on the ground for intended purposes without being 
diverted for unnecessary overhead.
    Madam Chairman, as you know, the Forest Service has had 
problems with accountability in the past. We have been the 
subject of more than 20 oversight reports and internal studies. 
we have been resoundingly criticized for having poor decision 
making, either bloated or inaccurate overhead costs, and non-
responsive accounting systems. While some of this may be 
exaggerated, I fully acknowledge that some is true. We've got 
the message. We will improve dramatically. Let me highlight 
several initiatives that are now underway.
    First and most importantly, I have made it clear through 
organization changes and personal statements that the business 
and financial management functions of this agency are equally 
as important as attention to managing the resources. I have 
placed business management professionals in operations and 
financial management positions. We have established a Chief 
operating officer at the Associate Chief level which reports 
directly to me, thus placing our business management functions 
on an operating level equal to that of our natural resource 
functions. We have brought in a new Chief Financial Officer at 
the Deputy Chief level to implement the Foundation Financial 
Information System. This is her top priority, with a goal of 
achieving a clean financial opinion from the General Accounting 
office as soon as possible.
    It is also time to reform our budget structure. I want to 
work with the Congress and the Administration to design a 
budget structure that reflects the work we do and the Results 
Act Strategic plan on which the Natural Resource Agenda is 
based. The current budget structure does not support the 
integrated work necessary to restore and maintain land health 
while promoting ecological sustainability. In order to ensure 
accountability while implementing a new budget structure, we 
will employ land health performance measures to demonstrate 
that we can have a simplified budget and improve water quality, 
protect and restore more habitat, and improve forest ecosystem 
health.
    In fiscal year 2000 we will begin to implement reforms to 
our trust funds. We will examine alternatives for trust fund 
management in the future to avoid unintended incentives to 
pursue forest management activities that are not consistent 
with land health objectives.
    For the first time, at the direction of Congress, we have 
developed and implemented standard definitions for indirect 
costs which are in full compliance with the Federal Accounting 
Standards Advisory Board. These definitions have been reviewed 
by several oversight groups. Based on these definitions, for 
the first time we have accurately determined indirect expenses 
for the agency, which during fiscal year 2000 we project to be 
18.9 percent.
    As you know, the issue of indirect costs, often referred to 
as overhead, received extensive attention during the 105th 
Congress, as did the poor quality of our financial system and 
records. I want to make a specific request as your Committee 
examines our budget in the coming year. I ask for your patience 
and support in rectifying much of our accountability problems. 
The Forest Service's financial management and reporting of 
overhead took a decade or more to fall into disrepair. It will 
take more than a year to fix the problem. Let me emphasize that 
we are devoting extensive resources to implementing new 
financial systems, improving our audit processes, and improving 
decision making. The resources we devote to make these fixes 
involves expenditures of an overhead type nature. As we 
concentrate on cleaning up our problems, we need to have 
flexibility without legislated limitations which could prevent 
us from being successful.
    In my testimony today, I have reviewed the President's 
initiatives, discussed the Natural Resource Agenda, and 
described our intent to improve agency accountability. In 
conclusion, I want to say that a Forest Service that meets the 
needs of the American people and restores and preserves the 
health of the nations forests and rangelands, is a goal we all 
strive for. I'll leave you with some thoughts based on Aldo 
Leopold's Sand County Almanac; the same words I left with our 
employees in Missoula during my state of the Forest Service 
speech.
    Let us recommit ourselves to an invigorated nation and land 
ethic. An ethic that recognized that we cannot meet the needs 
of people without first securing the health, diversity, and 
productivity of our lands and waters. An ethic that understands 
the need to reconnect our communities--both urban and rural--to 
the lands and waters that sustain them. An ethic that respects 
that the choices we make today influence the legacy that we 
bequeath to our children and their children's children.
    That concludes my remarks. I would be pleased to answer any 
questions you may have.

                                <greek-d>

</pre></body></html>
